Highlights
Table of Contents




                    eCommerce
                    Customer
                    Registration
Findings
Recommendations




                    Audit Report
                    Report Number
                    IT-AR-14-008

                    August 15, 2014
Appendices




                                      Print
Highlights
Table of Contents




                    Highlights                          Background                                                        Of the four applications, Click-N-Ship’s credit card fraud-related
                                                                                                                          loss of $4.6 million was above the industry’s recommended
                                                        The U.S. Postal Service’s Customer Registration application
                                                                                                                          threshold for acceptable levels of credit card fraud in FY 2013.
                                                        allows customers to create accounts through USPS.com to
                                                                                                                          In addition, management did not always ensure all credit card
                         Effective management and       purchase products and services through over 40 eCommerce
                                                                                                                          company chargebacks were validated.
                                                        applications such as Every Door Direct Mail, Premium
Findings




                       technical controls are needed    Forwarding Service, Click-N-Ship, and the Postal Store.           Further, seven of the eight Customer Registration controls
                                                        Customers must provide personally identifiable information        we tested worked as management intended. However, we
                     to strengthen oversight, further   to create an account. There were over 24 million Customer         identified one vulnerability that could permit a cyber criminal to
                                                        Registration users as of June 2014 and revenue totaled about
                              reduce fraud-related                                                                        impersonate a valid user and obtain postage using stolen credit
                                                        $1.2 billion in fiscal year (FY) 2013.                            card data. Finally, we did not identify any critical or high-risk
                       credit card chargebacks, and                                                                       vulnerabilities when conducting over 3,000 additional tests of
                                                        Our objective was to determine the effectiveness of controls
                                                                                                                          the USPS.com login page.
                       prevent a cyber criminal from    used to safeguard the eCommerce Customer Registration
Recommendations




                                                        process and reduce online credit card fraud.
                     obtaining postage using stolen                                                                       What the OIG Recommended
                                  credit card data.     What the OIG Found                                                We recommended management establish a threshold for credit
                                                                                                                          card fraud and develop a policy defining chargeback roles and
                                                        Controls used to safeguard the eCommerce Customer
                                                                                                                          responsibilities.We also recommended management maintain
                                                        Registration process and reduce online credit card fraud need
                                                                                                                          chargeback research results from all eCommerce managers
                                                        improvement. Management has not established a threshold for
                                                                                                                          and configure eCommerce applications to prevent the noted
                                                        fraud-related chargebacks (transactions rejected by credit card
                                                                                                                          security vulnerability.
                                                        companies) for the four eCommerce applications in our review.
                                                        As a result, management cannot objectively measure when to
                                                        increase oversight and controls to reduce fraud.
Appendices




                    eCommerce Customer Registration
                    Report Number IT-AR-14-008
                                                                                                                                                  Print                                    1
Highlights
                    Transmittal Letter


                                                      August 15, 2014
Table of Contents




                                                      MEMORANDUM FOR:	 NAGISA M. MANABE
                                                      				             EXECUTIVE VICE PRESIDENT, CHIEF MARKETING
                                                      				AND SALES OFFICER

                                                      				SCOTT G. DAVIS
                                                      				ACTING VICE PRESIDENT, CONTROLLER

                                                      				                       JOHN T. EDGAR
                                                      				                       VICE PRESIDENT, INFORMATION TECHNOLOGY

                                                      				                       KELLY M. SIGMON
                                                      				                       VICE PRESIDENT, RETAIL CHANNEL OPERATIONS

                                                      				ELIZABETH M. SCHAFER
Findings




                                                      				 TREASURER, CORPORATE TREASURY




                                                      				
                                                      FROM: 			 John E. Cihota
                                                      				Deputy Assistant Inspector General
Recommendations




                                                      				       for Financial and Systems Accountability

                                                      SUBJECT: 			               Audit Report – eCommerce Customer Registration
                                                      				                       (Report Number IT-AR-14-008)

                                                      This report presents the results of our audit of eCommerce Customer Registration
                                                      processes and controls (Project Number 13BG018IT000).

                                                      We appreciate the cooperation and courtesies provided by your staff. If you have any
                                                      questions or need additional information, please contact Sean Balduff, acting director,
                                                      Information Technology, or me at 703-248-2100.

                                                      Attachment
Appendices




                                                      cc:	   Corporate Audit and Response Management



                    eCommerce Customer Registration
                    Report Number IT-AR-14-008
                                                                                                                           Print                2
Highlights
                    Table of Contents
                                                      Cover
                                                      Highlights.......................................................................................................1
                                                       Background.................................................................................................1
                                                       What the OIG Found...................................................................................1
                                                       What the OIG Recommended.....................................................................1
Table of Contents




                                                      Transmittal Letter...........................................................................................2
                                                      Findings.........................................................................................................4
                                                       Introduction.................................................................................................4
                                                       Conclusion..................................................................................................5
                                                       Threshold for Chargebacks.........................................................................5
                                                       Management of Chargeback Disputes........................................................7
                                                       Customer Registration Controls..................................................................9
                                                      Recommendations......................................................................................10
                                                       Management’s Comments........................................................................10
Findings




                                                       Evaluation of Management’s Comments.................................................. 11
                                                      Appendices..................................................................................................13
                                                       Appendix A: Additional Information...........................................................14
                                                         Background ...........................................................................................14
                                                         Objective, Scope, and Methodology.......................................................15
                                                         Prior Audit Coverage..............................................................................15
Recommendations




                                                       Appendix B: Customer Registration Controls Test Results.......................16
                                                       Appendix C: Summary of Chargebacks....................................................18
                                                       Appendix D: Management’s Comments...................................................19
                                                      Contact Information.....................................................................................29
Appendices




                    eCommerce Customer Registration
                    Report Number IT-AR-14-008
                                                                                                                                                Print                      3
Highlights
                    Findings                          Introduction
                                                      This report presents the results of our self-initiated audit of eCommerce Customer Registration (Project Number 13BG018IT000).
                                                      Our objective was to determine the effectiveness of controls used to safeguard the eCommerce Customer Registration process
                                                      and reduce online credit card fraud. See Appendix A for additional information about this audit.

                                                      Customers use the Customer Registration application to register accounts through USPS.com.1 These accounts give them access
                                                      to the U.S. Postal Service eCommerce applications such as Click-N-Ship,2 Every Door Direct Mail (EDDM),3 Premium Forwarding
                                                      Service (PFS),4 and the Postal Store,5 and allow them to purchase products and services through the Internet using a major credit
Table of Contents




                                                      card.6 There were over 24 million Customer Registration users as of June 2014. To create an account, customers must enter
                                                      personally identifiable information such as name, address, and telephone number. To purchase products and services, customers
                                                      also provide their credit card data.7

                                                      Credit card fraud carried out through an eCommerce application, such as Customer Registration, often starts with a cyber criminal8
                                                      successfully applying for a new account, or taking over an existing account by circumventing identity-proofing techniques.9 In
                                                      January 2013, management detected a high volume of automated, unauthorized attempts to log into Customer Registration
                                                      application accounts. After further analysis, management determined that cyber criminals obtained stolen credit card data from
                                                      unknown sources outside the Postal Service. They also accessed existing Postal Service accounts and created fictitious Customer
                                                      Registration accounts to purchase domestic and international shipping labels10 from Click-N-Ship. Affected credit cardholders
                                                      alerted their credit card issuers11 to report their credit card data had been stolen and used to make unauthorized purchases. The
                                                      issuer then generated chargebacks12 that resulted in a financial loss to the Click-N-Ship program management office.13 As a result,
Findings




                                                      the January 2013 Click-N-Ship credit card chargebacks related to fraud increased 122 percent (from $266,762 to $594,408) over
                                                      those recorded for September 2012.14 Additionally, management identified minimal credit card fraud in the Postal Store, EDDM,
                                                      and PFS applications. See Appendix C for additional information.

                                                      In January 2013, management began implementing additional controls to reduce fraudulent activity.15 Click-N-Ship credit card
                                                      chargebacks declined as the new controls were implemented; however, continuous assessment of Customer Registration controls
                                                      and a detailed knowledge of current cyber threats are some of the measures needed to continuously combat cyber criminal
Recommendations




                                                      activity.




                                                      1	 Provides various tools for customers to ship at any time, as well as help control home, business, or Post Office Box™ mail delivery with easy-to-use links.
                                                      2	 Enables customers to create pre-paid shipping labels for certain mail classes using the customer’s personal computer and printer.
                                                      3	 Enables businesses to send advertising mail to their desired audience without acquiring an address list or printing specific names and addresses on mailpieces.
                                                      4	 Provides the ability for customers to forward their mail from their permanent address to a temporary address.
                                                      5	 Enables customers to easily purchase products online such as stamps, supplies, gifts, and collectibles.
                                                      6	 Visa, MasterCard, Discover, and American Express. Customers may also use PayPal to purchase Click-N-Ship products.
                                                      7	 Customers are redirected to the            Payment application to enter their credit card data when making a purchase.
                                                      8	 An individual who commits cyber crimes using the computer as a tool, a target, or both.
                                                      9	 Identity-proofing techniques include a layer and risk-based approach that provides assurance of identity verification.
                                                      10	 Many of these labels were placed on packages used as part of reshipping schemes, where stolen or illegally obtained goods were shipped to overseas destinations.
Appendices




                                                      11	 The issuer provides credit cards and contracts with its cardholders for billing and payment of transactions.
                                                      12	 Chargebacks occur when the bank debits the Postal Service for a previously settled credit or debit card transaction. The most common reasons for chargebacks include
                                                          customer disputes, fraud, processing errors, and authorization issues.
                                                      13	 The issuer reversed the chargebacks the Postal Service successfully disputed.
                                                      14	 September 2012 represents the lowest recorded fraud-related chargeback period in fiscal year (FY) 2012.
                                                      15	 Examples of Customer Registration controls implemented since January 2013 include disabling accounts when users attempt to change their account profile more than
                                                          five times a day and detection of cyber criminals who use scripts to create numerous accounts within a short timeframe.
                    eCommerce Customer Registration
                    Report Number IT-AR-14-008
                                                                                                                                                                           Print                                                 4
Highlights                                              Conclusion
                        The Postal Service incurred     Controls used to safeguard the eCommerce Customer Registration process and reduce online credit card fraud need
                                                        improvement. Management did not establish a specific threshold for expected fraud-related chargebacks for Click-N-Ship, EDDM,
                           Click-N-Ship credit card     PFS, and the Postal Store. Specific thresholds were not established because the Click-N-Ship manager believed the existing
                                                        controls were sufficient and EDDM, PFS, and Postal Store managers thought the minimal chargebacks in their programs did not
                             fraud-related losses of    warrant establishing thresholds. Although we agree chargebacks for EDDM, PFS, and the Postal Store were minimal for the period
                    $4.6 million in FY 2013 exceeding   we reviewed, management needs a threshold to objectively measure whether fraud chargebacks reach an unacceptable level or
                                                        effectively gauge when to escalate oversight and preventative controls to reduce credit card fraud. A threshold would also help
Table of Contents




                      the industry best practice by a   management determine whether the costs of controls implemented to prevent fraud outweigh the benefits.

                               total of $2.8 million.   The Postal Service incurred Click-N-Ship credit card fraud-related losses of $4.6 million in FY 2013.16 This exceeded the industry
                                                        best practice of 0.35 percent of revenue17 by a total of $2.8 million.

                                                        Additionally, we determined the program managers for PFS and EDDM did not research chargebacks related to their programs.
                                                        Furthermore, Eagan Accounting Services did not maintain records needed to monitor, account for, and ensure timely receipt of the
                                                        program manager’s research results because there are no standard operating procedures explaining the roles and responsibilities
                                                        for these functions. Without performing this research and maintaining the results, the Postal Service is at risk for monetary loss
                                                        from the sale.18

                        A threshold for eCommerce       Furthermore, we determined seven of the eight Customer Registration controls we tested worked as management intended;
Findings




                                                        however, we identified one security vulnerability that could permit a cyber criminal to impersonate a valid user and obtain postage
                           application fraud-related
                                                        using stolen credit card information.19 We did not identify any critical or high-risk vulnerabilities when conducting over
                           credit card chargebacks      3,000 additional tests of the USPS.com login page.

                              was not established.      Threshold for Chargebacks
                                                        Program managers did not establish a specific threshold for expected fraud-related chargebacks for Click-N-Ship, EDDM, PFS,
                                                        and the Postal Store. Industry best practice20 recommends establishing thresholds that escalate incidents of fraud to higher levels
Recommendations




                                                        of management visibility. Our research found the recommended threshold was 0.35 percent of revenue for fraudulent credit card
                                                        chargebacks associated with “card not present” purchases.21

                                                        Click-N-Ship management believed the existing controls were sufficient and EDDM, PFS, and Postal Store managers thought a
                                                        threshold was not warranted because chargebacks were minimal. Even though chargebacks for EDDM, PFS, and the
                                                        Postal Store were minimal for the period we reviewed, management needs an established threshold for all four applications to
                                                        objectively measure whether fraud-related chargebacks have reached an unacceptable level. Establishing a threshold would

                                                        16	 Click-N-Ship chargeback amounts included 95 percent of the total MasterCard and Visa chargebacks identified as fraudulent. They also included 100 percent of American
                                                            Express and Discover chargeback amounts because the Postal Service was unable to                                                                                      .
                                                        17	Provided by Gartner, Inc., a leading information technology research and advisory company.
                                                        18	 The time required to respond to the acquirer with dispute documentation varies by credit card brand and the acquirer’s internal procedures. Historically, for Visa
Appendices




                                                            chargebacks, Eagan Accounting Services had to respond to the acquirer in 7 to 10 days.
                                                        19	 We tested three additional controls; however, the results were inconclusive. This was a result of an existing compensating control that limits the number of times a user
                                                            can edit his or her profile (five times per day). This control is in place because numerous changes to a user’s account profile are an indicator of a user with malicious
                                                            intentions.
                                                        20	 Managing the Business Risk of Fraud: A Practical Guide, sponsored by the Institute of Internal Auditors, the American Institute of Certified Public Accountants, and the
                                                            Association of Certified Fraud Examiners.
                                                        21	 Transactions in which the customer is not required to physically present the credit card (for example, online transactions).
                    eCommerce Customer Registration
                    Report Number IT-AR-14-008
                                                                                                                                                                               Print                                                5
Highlights                                            allow managers to consistently gauge when to escalate oversight of the program and increase the preventative controls needed
                                                      to mitigate fraud. A threshold would also help management determine whether the costs of controls implemented to prevent fraud
                                                      outweigh the benefits.

                                                      We reviewed the credit card chargebacks associated with purchases made through the Click-N-Ship, EDDM, the Postal Store,
                                                      and PFS applications for FYs 2012 and 2013. Only the Click-N-Ship application incurred chargebacks over the recommended
                                                      threshold. Figure 1 shows FYs 2012 and 2013 revenue and chargeback comparisons for Click-N-Ship. Fraud-related chargebacks
                                                      were 0.9 percent higher in FY 2012 and 0.52 percent higher in FY 2013 than the best practice recommended
                                                      0.35 percent threshold.
Table of Contents




                                                      Figure 1. Click-N-Ship Revenue and Chargeback Data

                                                         Safeguard Controls for Online Fraud Need Improvement

                            Hover over active areas
                              for more information.               Click-N-Ship Revenue and Chargeback Data

                                                                      Click-N-Ship                            FY 2012                            FY 2013

                                                                 Revenue                                   $490,375,618                      $535,865,158
Findings




                                                                 Chargebacks                                 $6,137,780                         $4,686,252
                                                                 (percentage of revenue)                     (1.25%)                            (0.87%)

                                                                 Best Practice Threshold
                                                                                                              $1,716,315                         $1,875,528
                                                                 (0.35 percent of revenue)
Recommendations




                                                                 Chargeback Variance
                                                                                                              $4,421,465                         $2,810,724
                                                                 >0.35 percent of revenue


                                                                 FY 2012/2013 Chargeback Variance Total                                          $7,232,189
Appendices




                    eCommerce Customer Registration
                    Report Number IT-AR-14-008
                                                                                                                                              Print                                    6
Highlights                                            Management of Chargeback Disputes
                                                      Managers from Eagan Accounting Services and the program management offices for Click-N-Ship, EDDM, and PFS did not
                                                      effectively manage all credit card chargeback disputes. Postal Service policy22 states that responses to chargebacks should
                                                      occur immediately after a request from the financial institution or the Postal Service will incur the expense of the sale. Untimely
                      Chargeback disputes were not    responses occurred because there is no standard operational procedure explaining the roles and responsibilities for effective
                                                      management of these chargeback disputes for all parties involved. Timely responses to chargeback inquiries are needed to assist
                                properly managed.     Eagan Accounting Services in providing the acquirer23 compelling evidence that certain chargebacks are not valid; otherwise, the
                                                      program office’s budget is at risk for monetary loss from the sale. Click-N-Ship credit card fraud resulted in sales losses of
Table of Contents




                                                      $6.1 million in FY 2012 and $4.6 million in FY 2013.

                                                      The Finance Branch, Eagan Accounting Services, provided a daily list of the credit card chargebacks to all of the program
                                                      managers;24 however, program managers for Click-N-Ship, PFS, and EDDM did not use this information to research the
                                                      chargebacks and did not provide the documented proof to Eagan Accounting Services that it needed to dispute any chargebacks.
                                                      Management indicated program managers were not trained to perform this function. In addition, the program manager for
                                                      Click-N-Ship stated he was not aware of the requirement to communicate the results to Eagan Accounting Services. Further,
                                                      Eagan Accounting Services did not maintain records needed to monitor and ensure timely receipt of program managers’
                                                      chargeback research results.
Findings
Recommendations
Appendices




                                                      22	 Postal Service Handbook F-101, Field Accounting Procedures, Section 9-2.8, October 2013.
                                                      23	 The merchant’s (Postal Service’s) bank.
                                                      24	 The list of credit card chargebacks is provided daily unless there are no chargebacks.
                    eCommerce Customer Registration
                    Report Number IT-AR-14-008
                                                                                                                                                     Print                              7
Highlights                                            See Figure 2 for a flowchart describing the chargeback lifecycle. See Appendix C for a summary of chargeback amounts for
                                                      FYs 2012 and 2013.

                                                      Figure 2. Chargeback Lifecycle24
Table of Contents




                                                      Figure 1. Chargeback Lifecycle25
Findings
Recommendations
Appendices




                                                      Source: VISA – Chargeback Management Guidelines for Visa Merchants, 2011.




                                                      25	 This diagram is a generic representation of the Visa chargeback lifecycle.
                    eCommerce Customer Registration
                    Report Number IT-AR-14-008
                                                                                                                                             Print                               8
Highlights                                              Customer Registration Controls
                                                        Our test of eight selected Customer Registration security controls demonstrated that seven controls were working as intended.
                                                        Furthermore, we used software26 that performed over 3,000 tests of the USPS.com login page and did not identify any critical or
                                                        high-risk vulnerabilities.27 See Appendix C for complete results of our tests and information about the controls we tested.

                                                        Examples of controls that work as management intended include the following:
                     Customer Registration security
                                                        ■■ Customer Registration users are limited to three login attempts. This control is in place to help prevent cyber criminals from
Table of Contents




                          controls were working as         successfully guessing an account holder’s password. Customer Registration accounts are locked after the third login attempt.
                                                           To unlock the account, the user may call the Customer Registration Help Desk, use the “I Forgot My Password” feature by
                        intended with the exception        answering secret questions, or wait 24 hours and try again.
                      of one vulnerability that could
                                                        ■■ Changes to user profiles are limited to five per day. This control is in place because numerous changes to a user’s account
                     allow a cyber criminal to obtain      profile indicate a user with malicious intentions. If a user needs to change his or her profile after exceeding the daily limit, the
                                                           user can call the Help Desk and answer his or her secret questions and may be granted an override (one time in 24 hours).
                              postage using stolen
                                                        While most security controls we tested were working as intended, we identified one security vulnerability that may permit a
                            credit card information.
                                                        cyber criminal to impersonate a valid user and obtain postage using stolen credit card information.28 Specifically, two
                                                                  related to the Click-N-Ship and the Postal Store applications were not configured to safeguard the            information
                                                        from unauthorized disclosure and modification. Although management was aware of the vulnerability in 2012, they did not take
Findings




                                                        corrective action because they prioritized their efforts by addressing high and medium risks first.
Recommendations




                                                        26	 We used Hewlett-Packard (HP) WebInspect to perform these tests.
Appendices




                                                        27	 Using HP WebInspect, we were able to thoroughly test the USPS.com login page, but the limit of five edits to the Customer Registration profile per day prevented us from
                                                            performing any useful tests on the Customer Registration web pages.
                                                        28	 In 2012, an outside vendor reported this as a low-risk finding and recommended addressing this vulnerability. Although there is a small probability of an exploit, the impact
                                                            could be great.




                    eCommerce Customer Registration
                    Report Number IT-AR-14-008
                                                                                                                                                                                  Print                                                 9
Highlights
                    Recommendations                   We recommend the executive vice president, chief Marketing and Sales officer, in coordination with the vice president, Retail
                                                      Channel Operations, direct the program managers for Click-N-Ship, Every Door Direct Mail, Premium Forwarding Service, and the
                                                      Postal Store to:

                                                      1.	 Establish thresholds for acceptable levels of credit card fraud for their program areas to help determine when escalation of
                                                          oversight and additional controls are needed.

                                                      We recommend the treasurer, Corporate Treasury, in coordination with the acting vice president, Controller, direct the manager,
                                                      Banking, to coordinate with the manager, Accounting Services, to:
Table of Contents




                                                      2.	 Create standard operating procedures documenting the roles and responsibilities for all program offices responsible for
                                                          managing chargebacks and Eagan Accounting Service’s responsibility for monitoring and obtaining timely receipt of program
                                                          managers’ chargeback research results.

                                                      We recommend the vice president, Information Technology, direct the manager, Business Relationship Management, to:

                                                      3.	 Eliminate the identified security vulnerability concerning               on all Customer Registration integrated applications.

                                                      Management’s Comments
                                                      Management partially agreed with the findings in our report, and agreed with recommendations 2 and 3. Management disagreed,
Findings




                                                      in part, with recommendation 1 and disagreed with the monetary impact.

                                                      Regarding recommendation 1, management agreed with the mathematical calculations performed. However, they disagreed
                                                      with the metric (.35 percent ratio) provided by an industry expert to determine monetary impact as stated in the report, and cited
                                                      ratios from other sources that could be used. Management also disagreed with the recommendation because their eCommerce
                                                      programs have a goal of zero percent for fraudulent chargebacks. Management is currently enhancing their fraud detection
                                                      activities and will begin sending a monthly fraud/chargeback report to senior management by December 31, 2014.
Recommendations




                                                      Regarding recommendation 2, management will create standard operating procedures documenting the roles and responsibilities
                                                      for all program offices responsible for managing chargebacks and Eagan Accounting Service’s responsibility for monitoring and
                                                      obtaining timely receipt of program manager’s chargeback research results. Chargeback research will be contingent on the results
                                                      of a future cost benefit analysis, targeted for completion by March 31, 2015.

                                                      Regarding recommendation 3, management advised that they eliminated the identified security vulnerability concerning
                                                               The last set of corrections was completed for all applicable applications on May 12, 2014. Management did take
                                                      exception to how we portrayed the severity of the                  vulnerability, noting that evaluation and assessments rated this
                                                      as a low vulnerability.

                                                      Management disagreed with the amount of monetary impact because of subsequent consultation they obtained from an
Appendices




                                                      independent source indicating a higher level of acceptable credit card fraud. Also, management does not agree entirely with the
                                                      amount of chargebacks classified as fraudulent.




                    eCommerce Customer Registration
                    Report Number IT-AR-14-008
                                                                                                                                                  Print                                     10
Highlights                                            Management cited specific statements that they consider inaccurate or could be misleading. Specifically, management disagreed
                                                      with the ratio of .35 percent of credit card sales used as an acceptable level of credit card fraud. In addition, management stated
                                                      a portion of the criteria used was not applicable to eCommerce transactions and noted the importance of fraud prevention. They
                                                      also stated there was not an office named “Corporate Treasury, Fraud and Risk Mitigation.” See Appendix D for management’s
                                                      comments, in their entirety.

                                                      Evaluation of Management’s Comments
                                                      The OIG considers management’s comments responsive to recommendations 2 and 3 and the corrective action proposed should
Table of Contents




                                                      resolve the issues identified in the report. Management cited that they have taken corrective action for recommendation 3. The
                                                      OIG considers management’s comments to recommendation 1 to be non-responsive.

                                                      Regarding recommendation 1, we believe sending a monthly fraud/chargeback report will enhance management’s efforts to
                                                      reduce fraudulent chargebacks. However, we believe management’s goal of zero percent fraud is not practical from a
                                                      cost/benefit perspective. Although we used a threshold ratio of .35 percent of revenue for our analysis, we believe management
                                                      should perform their own analysis to determine a reasonable threshold that would be used to help determine when escalation of
                                                      oversight and additional controls are needed.

                                                      Although management disagreed with the .35 percent ratio that we received from an industry expert and used throughout our
                                                      report, we believe this ratio is valid. Management stated they identified a different ratio from a separate source and then confirmed
                                                      this ratio with the same expert we used. However, we do not know the context of management’s communications with the industry
Findings




                                                      expert, and management did not provide any additional evidence of this communication. Based on the objective of our audit and
                                                      consultation with our industry expert, we continue to believe the ratio is reasonable. However, as noted in recommendation 1,
                                                      we believe it is important for the Postal Service to establish its own threshold. We commend the Postal Service for conducting
                                                      additional research on potential thresholds and suggest it use that research to identify a threshold that is cost beneficial to the
                                                      Postal Service.

                                                      Additionally, management stated they do not entirely agree with our monetary impact because the OIG classified 100 percent
Recommendations




                                                      of the American Express and Discover chargebacks as fraudulent. In the report, the OIG explained that the Postal Service was
                                                      unable to                                                                       at the time of our audit and did not provide a basis
                                                      for the 95 percent ratio cited in management’s response. As a result, the OIG considers the entire amount at risk.

                                                      Management also stated that our reference to Handbook F-101 is not relevant to eCommerce transactions. However,
                                                      management did not provide us with any alternative policy. We believe the intent of the policy is relevant to disputing credit card
                                                      chargebacks regardless of where the transaction took place. Responding immediately after a request would ensure research
                                                      results are provided in time to meet the acquirer’s timeframes for chargeback reversal consideration.

                                                      We agree with management’s comments about the importance of preventing fraud and believe prevention is a valuable component
                                                      of minimizing fraud risk. It is for this reason we stress that management needs a threshold to objectively measure whether fraud
                                                      chargebacks reach an unacceptable level or effectively gauge when to escalate oversight and preventative controls to reduce
Appendices




                                                      credit card fraud.

                                                      Based on management’s comments, we changed the title of the group that oversees fraud and risk mitigation from “Corporate
                                                      Treasury, Fraud and Risk Mitigation” to “Corporate Treasury.”

                    eCommerce Customer Registration
                    Report Number IT-AR-14-008
                                                                                                                                                  Print                                     11
Highlights                                            Regarding recommendation 3, we concur that the vulnerabilities related to the                        is low. In fact, we reported that
                                                      management had been aware of the vulnerability but did not take corrective action because they addressed high and medium risks
                                                      first. Although the vulnerability is low, the risk that cyber criminal could impersonate a valid user and obtain postage using stolen
                                                      credit card information remains. Since management has been aware of this vulnerability for nearly 2 years, we believed it was
                                                      important for management to further reduce the risk, particularly in light of management’s detection of a high volume of automated,
                                                      unauthorized attempts to log into Customer Registration application accounts in January 2013.

                                                      The OIG considers recommendation 1 significant, and therefore requires OIG concurrence before closure. Consequently, the OIG
                                                      requests written confirmation when corrective action is completed. This recommendation should not be closed in the
Table of Contents




                                                      Postal Service’s follow-up tracking system until the OIG provides written confirmation that the recommendation can be closed.
                                                      Although we believe a zero percent fraud policy is not practical from a cost/benefit perspective, we view the disagreement
                                                      on significant recommendation 1 as unresolved but do not plan to pursue it through the formal audit resolution process. We
                                                      understand management’s decision to defer other corrective actions for recommendation 2 until May 2015, pending completion of
                                                      a positive cost-benefit analysis.
Findings
Recommendations
Appendices




                    eCommerce Customer Registration
                    Report Number IT-AR-14-008
                                                                                                                                                  Print                                  12
Highlights
                    Appendices
                                                        Appendix A: Additional Information...........................................................14
                                                         Background ...........................................................................................14
                                                         Objective, Scope, and Methodology.......................................................15
                          Click on the appendix title    Prior Audit Coverage..............................................................................15
                                                        Appendix B: Customer Registration Controls Test Results.......................16
Table of Contents




                          to the right to navigate to
                                                        Appendix C: Summary of Chargebacks....................................................18
                               the section content.     Appendix D: Management’s Comments...................................................19
Findings
Recommendations
Appendices




                    eCommerce Customer Registration
                    Report Number IT-AR-14-008
                                                                                                                                           Print                    13
Highlights          Appendix A:                       Background
                    Additional Information            According to a Trustwave® 2013 Global Security Report, the primary data type targeted by cyber criminals in 2011 and 2012
                                                      was credit cardholder data. There is a well-established underground marketplace for stolen credit card data. Criminals purchase
                                                      and sell this data quickly for use in fraudulent transactions. eCommerce applications were more susceptible to credit card fraud
                                                      activities compared to in‑store purchase transactions where the credit card is presented and physical verification of identity is
                                                      possible. This makes the Internet extremely attractive to fraud perpetrators. Determined criminals have compromised almost
                                                      every electronic identity‑proofing technique and, unfortunately, there is no infallible solution to eliminating all fraudulent schemes
                                                      and practices. As a result, the Postal Service is challenged, as are all eCommerce businesses, with safeguarding its eCommerce
Table of Contents




                                                      applications from cyber criminals, identifying those involved, and determining their full intentions.

                                                      Corporate Treasury, oversees fraud and risk mitigation and supports the development and implementation of strategies, policies,
                                                      and programs for mitigating payment fraud. This office is also responsible for analyzing fraud risk, leading the implementation of all
                                                      corporate business initiatives to identify and mitigate fraud, and coordinating with various stakeholders to reduce fraud.

                                                      The Marketing Relationship Management Portfolio within Information Technology (IT), is the responsible owner of the Customer
                                                      Registration application. This office collaborates with managers and key officials from other offices, and helps mitigate credit card
                                                      fraud. These offices include program management offices (Click-N-Ship, EDDM, PFS, and the Postal Store), IT, the U.S. Postal
                                                      Inspection Service, and Corporate Information Security (CIS).

                                                      Eagan Accounting Services is responsible for disputing chargebacks in a timely manner. The program management offices are
Findings




                                                      responsible for researching chargebacks and providing supporting documentation to Eagan Accounting Services to dispute
                                                      chargebacks. If a chargeback is not resolved, Eagan Accounting Services will expense it to the appropriate program management
                                                      office, which considers it a loss.
Recommendations
Appendices




                    eCommerce Customer Registration
                    Report Number IT-AR-14-008
                                                                                                                                                   Print                                   14
Highlights                                            Objective, Scope, and Methodology
                                                      Our objective was to determine the effectiveness of controls used to safeguard the eCommerce Customer Registration process
                                                      and reduce online credit card fraud. To accomplish our objective, we interviewed managers and key officials from Marketing
                                                      Relationship Management, Corporate Treasury, Eagan Accounting Services, CIS, IT, and the Postal Inspection Service. We also
                                                      interviewed program managers for Click-N-Ship, EDDM, PFS, and the Postal Store.

                                                      We reviewed select Customer Registration security controls (implemented and planned) and performed manual and automated
                                                      tests of those controls. We performed a web vulnerability assessment during our audit using HP WebInspect,30 McAfee’s
Table of Contents




                                                      SSLDigger,31 and Mozilla Firefox32 to test select controls implemented in the Customer Registration application. We performed our
                                                      tests in the Customer Acceptance Test environment at the Eagan Computer Operations Service Center.

                                                      We analyzed revenue and credit card chargeback data for FYs 2010 through 2013 for the Click-N-Ship, EDDM,33 PFS, and the
                                                      Postal Store applications. In addition, we consulted with a contractor who has expertise in the field to determine an industry-
                                                      wide threshold for credit card fraud chargebacks. We used this data to conduct a comparative analysis of chargebacks to yearly
                                                      revenue for each of the four applications.

                                                      We conducted this performance audit from June 2013 through August 2014, in accordance with generally accepted government
                                                      auditing standards and included such tests of internal controls, as we considered necessary under the circumstances. Those
                                                      standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
                                                      our findings and conclusions based on our audit objective. We believe that the evidence obtained provides a reasonable basis
Findings




                                                      for our findings and conclusions based on our audit objective. We discussed our observations and conclusions with management
                                                      during the week of June 16, 2014, and included their comments where appropriate.

                                                      We assessed the reliability of chargeback data by collaborating and verifying the accuracy of the data with multiple managers from
                                                      Corporate Treasury, Fraud Risk and Mitigation, and Eagan Accounting Services. We determined that the data were sufficiently
                                                      reliable for the purposes of this report.

                                                      Prior Audit Coverage
Recommendations




                                                      The OIG did not identify any prior audits or reviews related to the objective of this audit.
Appendices




                                                      30	 An automated and configurable web application security-testing tool that mimics real-world hacking techniques and attacks.
                                                      31	 A software utility that evaluates and rates the security of Secure Socket Layer (SSL) ciphers accepted by a web server.
                                                      32	 Mozilla Firefox is a free and open-source web browser that provides support for add-ons written by third parties that integrate with Firefox.
                                                      33	 EDDM did not generate revenue in FY 2010 because it was not in production at that time.
                    eCommerce Customer Registration
                    Report Number IT-AR-14-008
                                                                                                                                                                                 Print                    15
Highlights          Appendix B:                       Table 2 identifies eight of the 11 judgmentally selected Customer Registration security controls we tested and the results of those
                                                      tests. Test results for three controls were inconclusive. We were able to test the Customer Registration login web page and
                    Customer Registration
                                                      determined that                                                                                                    did not exist on that
                    Controls Test Results             web page; however, we were not able to determine whether these controls passed or failed on subsequent web pages. This was
                                                      a result of an existing compensating control that limits the number of times a user can edit his or her profile to five times per day.
                                                      While the compensating control that limited our tests would also limit a cyber criminal’s attempt to perform the same tests, it is not
                                                      an indicator of whether the control passed or not. For the remaining eight controls, our tests demonstrated that seven are working
                                                      as management intended; however, we identified one that did not pass our test. We used automated tools and manual methods to
                                                      perform these tests in the customer acceptance test environment and on the USPS.com web page.
Table of Contents
Findings
Recommendations
Appendices




                    eCommerce Customer Registration
                    Report Number IT-AR-14-008
                                                                                                                                                    Print                                   16
Highlights                                            Table 2. Customer Registration Controls Test Results

                                                                                                                                                      Results
                                                      No.       Controls                                                                           Passed Failed

                                                                Using Firefox plug-ins1 we tested the following:
                                                                Cookies are marked as secure
                                                        1.                                                                                           X
                                                                A secure cookie helps secure a user’s identity.
Table of Contents




                                                        2.                                                                                                        X


                                                                Using the SSLDigger3 tool we tested the following:
                                                                Disable support in the web server for weak
                                                        3.      cryptography                                                                         X
                                                                Weak cryptography refers to weak algorithms and/or weak keys used to encrypt
                                                                data.

                                                                Using manual methods we tested the following:
                                                                Set email address limitations
                                                        4.      For example, limits the user’s choice of email name to a subset of the               X
                                                                technically valid characters.

                                                                Limit attempts to edit profile to five per day
Findings




                                                        5.      Numerous changes to a user’s account profile are an indicator of a user with         X
                                                                bad intentions

                                                                Lock account after three unsuccessful login attempts
                                                        6.      When the user attempts to login three times with an incorrect password, the          X
                                                                user’s account is immediately locked. This control helps prevent cyber criminals
                                                                from successfully guessing an account holder’s password.

                                                                Multiple user roles established
                                                        7.      Customer Registration roles include Administrator, Help Desk, and Data               X
Recommendations




                                                                Analyst. These roles help to segregate duties and improve access controls.

                                                                Enable account disabling in volume
                                                        8.      Multiple accounts can be disabled in large quantities based on indications of        X
                                                                fraudulent behavior/patterns.

                                                                Total                                                                                7             1
                                                      Source: OIG audit team’s judgmental selection of controls in coordination with Marketing Relationship Management.
                                                      1 Software that is added to existing software to increase program functionality.



                                                      3 Foundstone SSLDigger is a tool to assess the strength of SSL servers by testing the ciphers supported.
Appendices




                    eCommerce Customer Registration
                    Report Number IT-AR-14-008
                                                                                                                                                                          Print   17
Highlights          Appendix C:                       Table 3 summarizes the revenue and chargebacks for each application under review for FYs 2012 and 2013. Click-N-Ship
                                                      chargeback amounts include 95 percent37 of the total MasterCard and Visa chargebacks identified as fraudulent plus 100 percent38
                    Summary of Chargebacks
                                                      of American Express and Discover chargeback amounts. EDDM, PFS, and the Postal Store amounts represent 100 percent of the
                                                      chargebacks for each of the four previously stated credit card brands.

                                                      Table 3. Summary of Revenue and Chargebacks

                                                                   FY Revenue FY Chargeback Monthly Monthly                                           Monthly
                                                       Application (in millions) Totals     Average High                                              Low
Table of Contents




                                                      Click-N-Ship
                                                      FY 2012                          $490            $6,137,781 $511,482 $798,049                       $266,762
                                                      FY 2013                           536            4,686,252 390,521 594,408                           127,918
                                                      Total                                          $10,824,033
                                                      EDDM4
                                                      FY 2012                          $299                  $249            $249            $249             $249
                                                      FY 2013                           430                28,817            2,401          5,987              212
                                                      Total                                               $29,066
                                                      PFS5
                                                      FY 2012                            $19               $ 3,427           $492          $1,402               $15
                                                      FY 2013                             22                15,519           1,293          2,042               823
Findings




                                                      Total                                               $18,946
                                                      Postal Store                                                                                     
                                                      FY 2012                          $244              $312,017          $26,001        $37,453          $13,928
                                                      FY 2013                           266               282,947           23,579         42,961           12,995
                                                      Total                                              $594,964
                                                       Source: OIG calculations based on Eagan Accounting Services chargebacks and revenue provided by program
                                                       managers.
                                                       4 EDDM was placed into production in 2011; therefore, chargebacks were minimal in FYs 2011 and 2012.
Recommendations




                                                       5 PFS revenue included online and retail sales.
Appendices




                                                      37	 MasterCard and Visa identify fraudulent chargebacks. According to the Postal Service, those charges have historically been about 95 percent of all chargebacks.
                                                      38	 We are using 100 percent of American Express and Discover chargeback amounts because the Postal Service was unable to
                                                                                                  .
                    eCommerce Customer Registration
                    Report Number IT-AR-14-008
                                                                                                                                                                             Print                                          18
Highlights          Appendix D:
                    Management’s Comments
Table of Contents
Findings
Recommendations
Appendices




                    eCommerce Customer Registration
                    Report Number IT-AR-14-008
                                                      Print   19
Highlights
Table of Contents
Findings
Recommendations
Appendices




                    eCommerce Customer Registration
                    Report Number IT-AR-14-008
                                                      Print   20
Highlights
Table of Contents
Findings
Recommendations
Appendices




                    eCommerce Customer Registration
                    Report Number IT-AR-14-008
                                                      Print   21
Highlights
Table of Contents
Findings
Recommendations
Appendices




                    eCommerce Customer Registration
                    Report Number IT-AR-14-008
                                                      Print   22
Highlights
Table of Contents
Findings
Recommendations
Appendices




                    eCommerce Customer Registration
                    Report Number IT-AR-14-008
                                                      Print   23
Highlights
Table of Contents
Findings
Recommendations
Appendices




                    eCommerce Customer Registration
                    Report Number IT-AR-14-008
                                                      Print   24
Highlights
Table of Contents
Findings
Recommendations
Appendices




                    eCommerce Customer Registration
                    Report Number IT-AR-14-008
                                                      Print   25
Highlights
Table of Contents
Findings
Recommendations
Appendices




                    eCommerce Customer Registration
                    Report Number IT-AR-14-008
                                                      Print   26
Highlights
Table of Contents
Findings
Recommendations
Appendices




                    eCommerce Customer Registration
                    Report Number IT-AR-14-008
                                                      Print   27
Highlights
Table of Contents
Findings
Recommendations
Appendices




                    eCommerce Customer Registration
                    Report Number IT-AR-14-008
                                                      Print   28
Highlights
Table of Contents
Findings




                                                         Contact us via our Hotline and FOIA forms, follow us on social
                                                      networks, or call our Hotline at 1-888-877-7644 to report fraud, waste
                                                                             or abuse. Stay informed.
Recommendations




                                                                            1735 North Lynn Street
                                                                           Arlington, VA 22209-2020
                                                                                 (703) 248-2100
Appendices




                    eCommerce Customer Registration
                    Report Number IT-AR-14-008
                                                                                                                               Print   29
